a certificate of Appealability. The First Circuit's denial of COA
should be reversed and remanded.

Respectfully submitted.

RUBEN SANCHEZ, Fro-Se
Dated: September 2, 2020

W98968, MCI-Norfolk
P.0. BOX 43
Norfolk, MA 02056

CERTIFICATE OF SERVICE
I hereby certify that on September 2, 2020, I filed the foregoing
document by first class U.S. mail, prepaid, with the Clerk of
Courts, United States Supreme Court,
1 First Street NE /
Washington, DC 20543. I certify that I sent a copy of the
foregoing document by first class U.S. mail, prepaid, to: Susanne
Reardon, Assistant Attorney General, Office of Attorney General,
One Ashburton Place, Boston, MA 02108.
j
fjo

Ruben Sanchez

32

